Visa Credit Card
Account Agreement
This Visa Credit Card Account Agreement (“Agreement”) and the
Account Disclosures (“Account Disclosure”) given to you when
you opened your Card account (“Account”) will govern your Visa
Credit Card and Account issued by ELGA (“Credit Union”). In this
Agreement, the words "you," "your," "yours," "applicant," and
"Borrower" mean any person who signs the application for this
Account, any joint obligor, guarantor, authorized user, or the person whose name is embossed on the Card. The words "we," "us,"
"our," and "Credit Union" mean ELGA Credit Union. The word
"Card" means any one or more credit cards issued under this Account. If you sign an application for this Account or sign or
use any Card or PIN, or allow others to use the Card or PIN,
you and they will have accepted this Agreement just as if you
and they signed it, and you and they, jointly and severally,
will be bound by the following terms and conditions which
will govern this Account.
1. You Promise to Pay
You promise to pay us all amounts, plus any Interest Charges,
which arise from use of the Card or Account by you or any other
person, and to be jointly and severally liable with such a person,
unless such other person does not have actual, implied, or apparent authority for such use, and you received no benefit from
the use. You promise to pay us either by direct payment or by automatic transfers from shares or by payroll deduction.
2. Account Access
a. Purchases, Cash Advances, and Balance Transfers.
You must sign the Card to use it. Once you have signed the Card,
you can use it to buy or lease goods, services, or insurance
wherever the Card is honored, up to the full amount of your Credit
Line. You may use your Account to get cash advances from us.
You may also use your Card to get a cash advance from participating financial institutions and to access your line of credit at automatic teller machines (“ATMs”) within the VISA network or any
other ATMs.
b. VISA Convenience Checks.
If we approve, you may obtain advances under your Account by
writing preprinted VISA convenience loan checks that we supply
to you. Your use of loan checks will be shown either as a purchase, cash advance, or balance transfer on your monthly statement. We may not honor your loan check if: your check is postdated; payment of the check would exceed your Credit Line; a
check is signed by person without authorized access; the amount
of the check is less than the minimum required amount; your Account has been terminated or suspended, or any drafts have
been reported lost or stolen. You may stop payment on a loan
check if you provide us with the exact information describing the
check. If you give us incorrect information, we will not be responsible for failing to stop payment. You understand there may be a
charge for each stop payment order requested. Our liability for a
wrongful dishonor is limited to your actual charges; however, a
dishonor for the reasons stated above is not a wrongful dishonor.
Only the person whose name is printed on a convenience check
may sign it. All convenience checks must be written in U.S. dollars. We will not certify a convenience check. You may write these
checks for any amount providing your total outstanding balance
does not exceed your available Credit Line and your credit card
remains in good standing. We are entitled to return it unpaid if
there is not enough available credit on your Account to pay it, if
you are in default under this Agreement, if your card or convenience checks have been reported lost or stolen, or if the convenience check is post-dated. A VISA convenience check may not be
used to make a payment on your VISA credit card account or any
© 2021 Farleigh Wada Witt. All rights reserved.

2303 South Center Road
Burton, MI 48519
Ph 810-715-3542 • TF 800-882-6457
Fx 810-600-2590 • www.elgacu.com

other loan account you have with us. The Credit Union shall have
no liability for any convenience check returned in excess of your
Credit Line.
3. Credit Line
If we approve your application, this Agreement will constitute a
revolving line of credit for an amount which will be the Credit Line
under your Account. We will advise you of the amount of your
Credit Line. That amount will be the maximum amount you may
have outstanding at any one time. You agree not to attempt to
obtain more credit than the amount of your Credit Line. However,
if you temporarily exceed your Credit Line, you agree to repay the
excess immediately, even if we have not yet billed you. Obtaining
such credit does not increase your Credit Line. We retain the right
to increase or decrease your Credit Line at any time. Any increase or reduction in the amount of your Credit Line will be
shown on your monthly statement or by separate notice together
with any changes in the applicable Minimum Monthly Payments.
Your eligibility for this Credit Line is determined by our loan policy
and may be terminated at our sole discretion, without demand or
notice. You may close your Credit Line at any time by notifying us
in writing and returning all Cards cut in half. If you terminate this
Agreement or if we terminate or suspend your credit privileges,
the provisions of this Agreement and your liability hereunder shall
otherwise remain in full force and effect until you have paid us all
sums due us under this Agreement and returned all Cards.
4. Minimum Monthly Payment
We will mail you a statement every month if your Account has a
balance. You agree that you will pay each month not less than the
minimum monthly payment on or before the closing date. The
minimum monthly payment will be 3.0% of your outstanding balance shown on your statement (“New Balance”), or $25, whichever is greater. If your outstanding balance is less than $25, you
agree to pay the balance in full. In addition to the minimum
monthly payment, you agree to pay any “Overlimit Amount” and
any amount past due shown on your statement each month by
the due date shown on your Statement. You may pay in full for all
your purchases and cash advances each month, or you may repay in monthly installments. We can accept late payments or partial payments, or checks, drafts, or money orders marked “payment in full” without prejudice to our rights under this Agreement,
which are hereby explicitly reserved. A credit posting from a merchant or reversal of fees does not constitute a minimum payment.
Payments will be applied first to interest and to fees, then to purchase balances, then to cash advance and balance transfer balances, and finally to any other charges or amounts owed. The
minimum monthly payment may be allocated at the Credit Union’s
discretion to pay off lower rate balances, such as promotional offers, before higher rate balances, such as cash advances or purchases. Payments in excess of the minimum monthly payment
will be allocated first to higher rate balances, as applicable. From
time to time, we may allow you to skip your minimum monthly
payment due. If you choose to skip that payment, Interest Charges will continue to accrue in accordance with this Agreement.
Payments received at: ELGA Credit Union, 2305 S. Center Rd.,
Burton, MI 48519 at or before 5:00 PM Eastern Time on any
business day will be credited to your Account as of that date;
payments received by mail at that address after 5:00 PM Eastern
Time or on a weekend will be posted to your Account as of the
next business day.
5. Security Interest
By signing your application, to secure your Account, you granted
us a purchase money security interest under the Michigan UniVisa Credit Card Account Agreement • 05-11-21 •

1

ELGA Credit Union  Visa Credit Card Account Agreement

form Commercial Code in any goods you purchase through your
Account. If you default, we will have the right to recover any of
these goods that have not been paid for through application of
your payments in the manner described in Section 4. In addition,
you granted us a security interest in all your shares and deposits,
present and future, and all accounts (except Individual Retirement
Accounts and Keogh Accounts) with the Credit Union to secure
your Account and agree, upon default, the Credit Union may apply all that is secured to pay any amounts due under this Agreement, without further notice to you. You further agree that collateral securing other loans with the Credit Union (except
loans secured by real property) also secures this Account.
6. Periodic Statements
Each month, if your outstanding balance exceeds $1, we will send
you a statement showing new purchases, cash advances, payments, and credits made to your Account during the billing period,
your Previous Balance, your "Total New Balance," any Interest
Charge, and any other charges. Your statement also will identify
the remaining Credit Line available and the Minimum Monthly
Payment you must make for that billing period and the date it is
due. For statement verification purposes, you agree to retain copies of transaction slips resulting from each purchase, each advance, and other transaction on your Account. Unless you notify
us of a billing error as described below, you accept your monthly
statement as an accurate statement of your Account with us.
7.

Circumstances Under Which an Interest Charge
Will Be Imposed
The total outstanding balance of purchases, balance transfers,
and cash advances in the Account on the closing date of a billing
period, including any Interest Charge, will be shown on the Periodic Statement for that billing period as the "New Balance."
a. Cash Advances and Balance Transfers.
We begin charging an Interest Charge on cash advances and
balance transfers from the date of each transaction. There is no
time period within which to pay to avoid a periodic Interest Charge
on cash advances or balance transfers.
b. Purchases.
Your due date is at least 25 days after the close of each billing
period. An Interest Charge will be imposed on the portion of purchases included in the New Balance that is not paid by the due
date. This “grace period” allows you to avoid an Interest Charge
on purchases for a billing period. If you do not pay the New Balance for purchases within the grace period, your Interest Charge
will accrue on any unpaid purchase transactions from the first day
of the billing period in which the payment is due.
8.

Method Used to Determine the Balance on
Which the Interest Charge May Be Computed
and Amount of Interest Charge
The Credit Union figures the Interest Charge on your Account by
multiplying the "Average Daily Balance" of purchases, balance
transfers, and cash advances for your Account (including current
transactions) by the Monthly Periodic Rate. To get the "Average
Daily Balance" we take the beginning balance of your Account
each day, add any new purchases or cash advances, and subtract
any payments or credits, unpaid Interest Charge and unpaid late
charges. However, current transactions are excluded from the Purchase balance. This gives us the daily balance. Then, we add up all
the daily balances for the billing period and divide the total by the
number of days in the billing period. This gives us the "Average
Daily Balance." To get the “Monthly Periodic Rate,” we divide the
Annual Percentage Rate in effect for the billing period by 12.
9.

Periodic Rate and Corresponding Annual
Percentage Rate
a. Standard Rates.
The Periodic Rate and corresponding Annual Percentage Rate(s)
used to compute the Interest Charge are based on your credit
© 2021 Farleigh Wada Witt. All rights reserved.

profile and are disclosed to you in the Account Disclosure provided with this Agreement when you open your Account.
b. Introductory Rates.
At our discretion, we may offer you an introductory or promotional
Annual Percentage Rate for your Account. Any introductory or
promotional Annual Percentage Rate will be subject to the terms
of the offer and this Agreement. We will provide you with information on the offer, including the time period the introductory or
promotional Annual Percentage Rate is in effect in the Account
Disclosure or in other materials that we send to you about the offer after you receive your Credit Card.
c. Penalty Rate.
If we do not receive a payment within 60 days of the date it is due,
a penalty Annual Percentage Rate of 17.90% will be applied to all
balances (current and future) on your Account. If you make six
consecutive payments on or before their due dates, we will adjust
your Annual Percentage Rate to the standard rate that would otherwise apply to your Account pursuant to this Agreement.
10. Conditions Under Which Other Charges May Be
Imposed
You agree to pay the following fees and charges on your Account:
a. Late Fee.
If we do not receive your full minimum payment on or before the
due date, you agree to pay a late fee of up to $25.
b. Returned Item Fee.
If any check or draft we receive from you as payment for any
amount you owe to us is returned to us unpaid, you agree to pay
a returned item fee of up to $25.
c. Card Replacement Fee.
You agree to pay $5 for each replacement Card you request.
d. Pick-up Fee.
If your Card has been blocked as lost or stolen and is recovered
and you try to use it, you will be charged $75.
e. Photocopy Fee.
You will pay $1 per page for each copy of a statement or sales
draft you request (unless the request relates to a billing error that
we made).
f. Attorney's Fees and Costs.
If you fail to make any payment when due or are otherwise in default under any part of this Agreement, you agree to pay us all
costs to collect your Account, including court costs and reasonable attorney fees whether or not there is a lawsuit, and fees on
any appeal and fees for bankruptcy proceedings, appeals, and
any post-judgment collection services, if applicable. These fees
and costs may be added to your Account balance and will bear
interest at the Annual Percentage Rate in effect at that time.
11. Conditions of Card Use
The use of your Card and Account are subject to the following
conditions:
a. Use.
Your Card and Account may be used only for valid and lawful
purposes. You may not use your Card (i) to make Purchases or
obtain Cash Advances for any illegal transaction, or (ii) for any
internet or online gambling transactions. If you use your Card for
any illegal or prohibited transaction, this Agreement also applies
to such transaction and you agree to pay any and all amounts related to such transaction pursuant to the terms of this Agreement.
We may, at our sole discretion and without warning, restrict the
use of or terminate your Card if we notice excessive use of your
Card or other suspicious activities or if we reasonably believe the
Card is or has been used for one or more illegal or prohibited
transactions.
b. Ownership of Cards.
Any Card or other credit instrument or device which we supply to
you is our property and must be returned to us, or to any person
Visa Credit Card Account Agreement & Disclosures • 05-11-21 •

2

ELGA Credit Union  Visa Credit Card Account Agreement

whom we authorize to act as our agent, or to any person who is
authorized to honor the Card, immediately according to instructions. The Card may be repossessed at any time in our sole discretion without demand or notice. You cannot transfer your Card
or Account to another person.
c. Honoring the Card.
We may decline to honor any transaction for any reason. Neither
we nor merchants authorized to honor the Card will be responsible for the failure or refusal to honor the Card or any other credit
instrument or device we supply to you. If a merchant agrees to
give you a refund or adjustment, you agree to accept a credit to
your Account in lieu of a cash refund.
d. Currency Conversion/International Transaction Fee.
Purchases made in foreign countries will be billed to you in U.S.
dollars. The currency conversion rate for international transactions, as established by Visa International, Inc., is a rate selected
by Visa from the range of rates available in wholesale currency
markets for the applicable central processing date, which may
vary from the rate Visa itself receives, or the governmentmandated rate in effect for the applicable central processing date.
In addition, you will be charged an International Transaction
Fee as set forth in the fee disclosure for any card transaction at a
location in a foreign country or with a merchant located in a foreign country even if you initiate the transaction from within the
United States.
e. Notices and Payments.
All notices will be sent to your address as shown in the application. You agree to advise us promptly if you change your mailing
address. All payments should be mailed to us at the remittance
address shown on your monthly statements. Payments received
at that address will be credited to your Account as of the date received. Written notices and inquiries to us must be sent to:
ELGA Credit Union
2305 S. Center Road
Burton, MI 48519
f. Personal Identification Number.
If we issue you a Personal Identification Number ("PIN") for use
with your Card in accessing your line of credit at ATMs, these
numbers are issued to you for your security purposes. These
numbers are confidential and should not be disclosed to third parties. You are responsible for safekeeping your PIN. You agree not
to disclose or otherwise make available your PIN to anyone not
authorized to sign on your Account. To keep your Account secure, please do not write your PIN on your Card or keep it in the
same place as your Card.
12. Loan Protection
Loan Protection coverage is not required for any extension of
credit under this Agreement. However, you may purchase any
loan protection available through us and have the monthly fee
added to your outstanding balance as purchases. If you elect to
do so, we will give you the necessary disclosures and documents
separately.
13. Default
You will be in default under this Agreement if any of the following
occur: (a) Any Minimum Monthly Payment is not made when due;
(b) You become insolvent, bankrupt, or you die; (c) You violate
any part of this Agreement, or any other agreement with us; or
(d) If we reasonably deem ourselves insecure with respect to your
Account. Upon default, we may declare the entire unpaid balance
immediately due and payable, and you agree to pay that amount
plus any attorney's fees and costs we incur, including fees and
costs in any appeal or bankruptcy proceeding. We can delay enforcing any right under this Agreement without losing that right or
any other right. We will notify you in writing of any such action as
soon as practical if it occurs.

© 2021 Farleigh Wada Witt. All rights reserved.

14. Governing Law
This Agreement will not take effect until it is approved by us. This
Agreement shall be governed by the laws of the State of Michigan.
15. Severability
If any provision of this Agreement is held invalid, the remaining
provisions that are severable shall remain in effect.
16. Loss or Theft of Card
You agree to notify us immediately of the loss, or the theft, or the
use without your permission, of any Card or other credit instrument or device which we supply to you. You may be liable for the
unauthorized use of your card. You will not be liable for unauthorized use which occurs after you notify: ELGA Credit Union, 2305
S. Center Rd., Burton, MI 48519; Phone: 810-715-ELGA (3542)
or 800-882-6457, orally or in writing of loss, theft, or possible unauthorized use. In any case, your liability shall not exceed $50.
17. Credit Information/Financial Statements
You authorize us to release information to others (e.g., credit bureaus, merchants, and other financial institutions) regarding the
status and history of your Credit Line. You agree to provide us, at
any time we deem necessary, with a current financial statement
and/or updated credit information upon request. We may investigate your credit directly or through a credit reporting agency.
18. Amendments
We reserve the right to change any terms or conditions of this
Agreement at any time, to the extent permitted by applicable law.
We will notify you of the changes to this Agreement as required
by law.
19. Billing Errors Notice, Your Credit Card
Billing Rights
Keep this document for future use. This notice tells you about your
rights and our responsibilities under the Fair Credit Billing Act.
a. What To Do If You Find a Mistake On Your Statement.
If you think there is an error on your statement, write to us at:
ELGA Credit Union, 2305 S. Center Rd., Burton, MI 48519. In
your letter, give us the following information:
• Account information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your
bill, describe what you believe is wrong and why you believe it
is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is
scheduled, if you want to stop payment on the amount you
think is wrong.
You must notify us of any potential errors in writing. You may call
us, but if you do, we are not required to investigate any potential
errors and you may have to pay the amount in question.
b. What Will Happen After We Receive Your Letter.
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that
we received your letter. We will also tell you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct
the error or explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question or report you as
delinquent on that amount.
• The charge in question may remain on your statement, and we
may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are
responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
Visa Credit Card Account Agreement & Disclosures • 05-11-21 •

3

ELGA Credit Union  Visa Credit Card Account Agreement

After we finish our investigation, one of two things will happen:
1. If we made a mistake: You will not have to pay the amount in
question or any interest or other fees related to that amount.
2. If we do not believe there was a mistake: You will have to
pay the amount in question, along with applicable interest and
fees. We will send you a statement of the amount you owe
and the date payment is due. We may then report you as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong,
you must write to us within 10 days telling us that you still refuse
to pay. If you do so, we cannot report you as delinquent without
also reporting that you are questioning your bill. We must tell you
the name of anyone to whom we reported you as delinquent, and
we must let those organizations know when the matter has been
settled between us. If we do not follow all of the rules above, you
do not have to pay the first $50 of the amount you question even
if your bill is correct.
c. Your Rights If You Are Dissatisfied with Your Credit Card
Purchases.
If you are dissatisfied with the goods or services that you have
purchased with your credit card, and you have tried in good faith
to correct the problem with the merchant, you may have the right
not to pay the remaining amount due on the purchase. To use this
right, all of the following must be true:

© 2021 Farleigh Wada Witt. All rights reserved.

1. The purchase must have been made in your home state or
within 100 miles of your current mailing address, and the purchase price must have been more than $50. (Note: Neither of
these are necessary if your purchase was based on an advertisement we mailed to you, or if we own the company that sold
you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a
check that accesses your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with
the purchase, contact us in writing at the above address. While
we investigate, the same rules apply to the disputed amount as
discussed above. After we finish our investigation, we will tell you
our decision. At that point, if we think you owe an amount and you
do not pay, we may report you as delinquent.
20. Acknowledgment
You understand and agree to the terms and conditions in this
Agreement and the Fair Credit Billing Notice. You acknowledge that
you have received a copy of this Agreement, the Account Disclosure, and the Fair Credit Billing Notice. This Agreement is a final
expression of the agreement between you and the Credit Union.

Visa Credit Card Account Agreement & Disclosures • 05-11-21 •

4

